TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Increased Support Is Needed to Ensure the
                  Effectiveness of the Final Integration Test



                                     September 15, 2014

                             Reference Number: 2014-20-085




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


INCREASED SUPPORT IS NEEDED TO                           TIGTA also found that the IRS does not have a
ENSURE THE EFFECTIVENESS OF THE                          formal process to evaluate, compare, and
FINAL INTEGRATION TEST                                   synchronize the FIT and filing season
                                                         environments, and that the Integrated Customer
                                                         Communications Environment was not available
Highlights                                               for testing. In addition, the FIT program has not
                                                         established performance metrics to compare
                                                         actual performance with expected performance.
Final Report issued on
September 15, 2014                                       Finally, TIGTA found that there were problems
                                                         with test analysts accessing the Employee User
Highlights of Reference Number: 2014-20-085              Portal and the Integrated Enterprise Portal,
to the Internal Revenue Service Chief                    which caused interruptions in the performance of
Technology Officer.                                      the Processing Year 2014 FIT.
IMPACT ON TAXPAYERS                                      WHAT TIGTA RECOMMENDED
The Final Integration Test (FIT) is a critical part      TIGTA recommended that the Chief Technology
of the IRS’s preparation for each filing season.         Officer: 1) ensure that an analysis of the
If tax processing systems are not properly               problem tickets is performed to identify root
integrated to deliver filing season functionality,       causes that can be addressed to reduce the
taxpayers may be unable to timely file returns,          burden on the FIT program and Information
receive refunds, or obtain timely, accurate              Technology organization resources; 2) provide
customer service.                                        the necessary level of business unit support to
                                                         the FIT; 3) ensure that the Integrated Customer
WHY TIGTA DID THE AUDIT                                  Communications Environment is included in the
The IRS will be making significant changes to its        FIT; 4) establish performance goals and metrics
tax processing system to implement legislative           for the annual FIT program; 5) establish a
changes, including provisions of the Affordable          process to determine the reason FIT test tax
Care Act. These changes will result in                   returns go to the Error Resolution System and
increased workload and challenges for the FIT            use those results to identify training
program. TIGTA conducted this audit to help              opportunities or operational improvements; and
ensure the effectiveness of the FIT program in           6) implement the environment comparison and
testing the integration of an increasingly               synchronization process between the FIT
complex tax processing system.                           program’s environment and the filing season
                                                         environment.
WHAT TIGTA FOUND
                                                         IRS management agreed with all of the
The Applications Development organization                recommendations. The IRS plans to analyze
delivered programming changes in                         FIT problem tickets; obtain additional support;
mid-December 2013, one month after the                   develop costing plans to implement the
planned start of FIT execution. There were               Integrated Customer Communications
numerous programming errors identified which             Environment application in the FIT; identify
required FIT program resources to report and             goals, measures, and a reporting process;
resolve. However, support from the Enterprise            conduct training and report Error Resolution
Operations organization and the Wage and                 System fallout results; and complete a gap
Investment Division was withdrawn from the FIT           analysis and synchronize the FIT environment.
program prior to the completion of the test
execution process to support the filing season.          However, the IRS also commented that
The early loss of support resulted in unplanned          implementation of most of the recommendations
deviations from the FIT Test Plan, as not all            is contingent upon overall budget constraints
tests could be completed as planned.                     and prioritization of essential taxpaying
                                                         operations.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 15, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Increased Support Is Needed to Ensure the
                             Effectiveness of the Final Integration Test (Audit # 201320018)

 This report presents the results of our review to evaluate the Execution phase of the Processing
 Year 2014 Final Integration Test process. This review is included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Danny Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                        Increased Support Is Needed to Ensure the
                                         Effectiveness of the Final Integration Test




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Support for the Annual Final Integration Test From Internal
          Revenue Service Organizations Needs Improvement................................... Page 3
                    Recommendation 1:........................................................ Page 7

                    Recommendations 2 and 3: .............................................. Page 8

          Management Oversight Should Include the Use of Performance
          Metrics to Monitor Final Integration Test Effectiveness .............................. Page 8
                    Recommendations 4 and 5: .............................................. Page 10

          A Formal Process Has Not Been Established to Compare and
          Synchronize the Final Integration Test and Filing Season
          Environments ................................................................................................ Page 11
                    Recommendation 6:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Glossary of Terms ................................................................ Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Increased Support Is Needed to Ensure the
         Effectiveness of the Final Integration Test




               Abbreviations

ACA     Affordable Care Act
ACS     Automated Collection System
AD      Applications Development
EOps    Enterprise Operations
ERS     Error Resolution System
EST     Enterprise Systems Testing
FIT     Final Integration Test
ICCE    Integrated Customer Communications Environment
IRS     Internal Revenue Service
IT      Information Technology
KISAM   Knowledge Incident/Problem Service Asset Management
MeF     Modernized e-File
PY      Processing Year
                                 Increased Support Is Needed to Ensure the
                                  Effectiveness of the Final Integration Test




                                           Background

The Internal Revenue Service (IRS) defines the Final Integration Test (FIT) program as the
integrated end-to-end testing of multiple systems which support the high-level business
requirements of the IRS. Each year, the IRS incorporates system improvements and changes to
the tax law into the tax processing system. The tax processing system consists of hundreds of
applications operating on many unique hardware and software platforms. The FIT is performed
from the perspective that all IRS applications are subsystems of the overall system. The FIT is
the final step of the application software testing effort designed to ensure that revisions to IRS
computer applications interoperate correctly prior to the tax return filing season1 (hereafter
referred to as filing season). Each FIT performed consists of a series of tests designed to ensure
that essential IRS applications will perform correctly when deployed. To accomplish this
objective, the IRS aims to create a FIT environment that emulates, as closely as possible, the
filing season environment. Using copies of filing season data, FIT personnel verify that data are
transferred correctly between the applications within the tax processing system.
The IRS manages the FIT program as a year-round program out of the Enterprise Systems
Testing (EST) Division within the Enterprise Services organization of the Information
Technology (IT) organization. While the overall responsibility for the FIT program lies with the
EST Division, the FIT program requires the participation and support of several other
organizations, including the Applications Development (AD) organization, the Enterprise
Operations (EOps) organization, the business units, and contractors. The FIT program receives
funding from the Modernized e-File (MeF), Customer Account Data Engine 2, and Affordable
Care Act (ACA)2 program offices. In July 2013, the IRS restructured its IT organization, moving
the EST Division from the AD organization to the Enterprise Services organization to
consolidate all testing activities and obtain increased consistency, efficiency, and accountability.
The EST Division’s mission is to work in partnership with its customers to improve the quality
of IRS applications, products, and services. To accomplish its mission, the EST Division plans,
develops, schedules, and conducts the FIT from the perspective of the end-user, e.g., the
taxpayer.
The FIT is conducted in four process steps: Planning, Preparation, Execution, and Closeout.
Each of the four process steps contains stated requirements for entry criteria, process activities,
output, and exit criteria. While the FIT program provides support for IRS activities throughout



1
 See Appendix IV for a glossary of terms.
2
 The Patient Protection and Affordable Care Act of 2010, Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as
amended in scattered sections of the U.S. Code), as amended by the Health Care and Education Reconciliation Act
of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                         Page 1
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



the year, the primary emphasis, and the focus of this audit report, is the Processing Year (PY)
2014 annual FIT Execution process, prior to production.
For the PY 2014 annual FIT, the IRS conducted test execution between November 2013 and
March 2014. Processing is triggered by the input of a taxpayer form, an Integrated Data
Retrieval System Command Code, a taxpayer request for information on an IRS application
website, or a telephone call, which will ultimately produce a refund, notice, or letter as output
back to the taxpayer. This type of testing is called Results Oriented Transaction Processing. The
transaction is the input form and the result is the refund, notice, or letter. Results Oriented
Transaction Processing is conducted by executing the processing identified in thread diagrams
and scenario text. These are triggered by test case data specially designed to generate
predetermined results.
In addition to verifying that accurate products are provided to taxpayers and other external
trading partners, the FIT program is required to verify that data are transferred correctly between
applications. For PY 2014, 48 tax processing systems were included in the FIT. FIT test
analysts and operations support staff execute runs associated with selected threads and scenarios.
Following the threads and scenarios execution, the FIT analysts compare the actual results with
the predetermined results. Once the FIT analyst determines there is a problem, that is not a test
process/procedure or data problem, the analyst submits a helpdesk ticket in the Knowledge
Incident/Problem Service Asset Management (KISAM) system for an application correction.
This review was performed at the IRS FIT program office in New Carrollton, Maryland, during
the period December 2013 through June 2014. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                                 Increased Support Is Needed to Ensure the
                                  Effectiveness of the Final Integration Test




                                     Results of Review

Support for the Annual Final Integration Test From Internal Revenue
Service Organizations Needs Improvement
The EST Division has overall responsibility for the FIT program execution. The FIT program
also requires the participation and support of several IRS organizations including the AD
organization, the EOps organization, and the business units to successfully accomplish its
mission. The FIT Concept of Operations document states that the completion of the tasks and
activities of all of the participating organizations is crucial to the successful execution of the FIT.
The document describes the following roles and responsibilities:
       EST Division: Is responsible for identifying the hardware, software, and
        telecommunications test bed components required for the FIT. In the event the required
        resources cannot be located at IRS sites, EST Division personnel coordinate the effort to
        procure these items.
       EOps organization: Provides system software support, operates equipment, schedules
        jobs, ensures integrity of databases and master files, monitors/corrects execution
        problems during all FIT test phases, submits problem tickets into the KISAM system, and
        reviews the status of open problem tickets.
       AD organization: Is responsible for the maintenance and upgrade of applications
        software and documentation. AD organization personnel also provide corrective action
        support during testing in response to problems reported in the KISAM system.
       Business Unit Personnel: The Wage and Investment Division provides the expertise of
        experienced personnel. Tax examiners assist with the preparation of individual and
        business test returns and with researching and correcting errors on test tax returns that fail
        validation and go to the Error Resolution System (ERS).
Each year the FIT program makes a significant contribution to the success of the filing season.
For PY 2014, the FIT program developed a test plan including more than 2,300 test cases for
48 tax processing systems. The PY 2014 FIT program identified more than 500 problems that
could have resulted in the failure of individual and business tax returns to be properly processed.
When testing was completed, the FIT program produced an End of Test Report3 that reported
problems uncovered during the PY 2014 FIT. Although the FIT program successfully identified


3
 IRS, End of Test Report For Final Integration Test (FIT) Annual Test Processing Year (PY 2014) Final Version
1.1, p. 8 (March 24, 2014).
                                                                                                        Page 3
                              Increased Support Is Needed to Ensure the
                               Effectiveness of the Final Integration Test



problems that could have resulted in the failure of tax returns to be properly processed, support
for the FIT program from IRS organizations could be improved or extended.

AD organization programming support needs improvement
Deviations from predetermined FIT results are reported as problem tickets in the KISAM system.
Problem tickets are assigned a priority based on the severity of the problem. There were
528 priority one, two, and three problem tickets created during the PY 2014 FIT. Figure 1
presents the definitions of problem ticket priorities one through three and the total number of
tickets by priority for the PY 2014 FIT.
                    Figure 1: PY 2014 FIT Problem Tickets by Priority

                                                                    Number of    Percentage of
  Problem Ticket Priority                   Definition               Tickets        Tickets
  Priority One – Critical        Causes a work stoppage and            82             16%
                                 has a critical impact on test
                                 processes and schedules.
  Priority Two – High            Impacts test processes but the        404            76%
                                 test can continue.
  Priority Three – Average       Assigned if the problem has no        42              8%
                                 major impact on test processes
                                 or schedules.
  Total Problem Tickets                                                528            100%
Source: Final FIT 2014 KISAM Daily Status Report, March 18, 2014.

Of the 528 priority one, two, and three problem tickets created during the PY 2014 FIT, as
presented in Figure 2 on page 9, 436 (83 percent) were programming errors. An additional
53 tickets (10 percent) were related to programming requirements not being sent to the MeF
contractor. Together, these two categories account for 93 percent of the problem tickets
identified during the PY 2014 FIT. Opening, working, and resolving problem tickets take
resources away from the FIT program and other IT organizations. Programming errors also
result in time being spent resolving the errors and the potential reduction of the amount of FIT
testing completed. Errors not identified during testing could result in problems processing tax
returns during the filing season. Application programming errors will be more critical in
PY 2015 as greater demands will be placed on FIT program resources to address significant
system changes as a result of implementing provisions of the ACA and other applications
planned to deploy during PY 2015. The FIT program will increase the number of test cases to
accommodate testing of ACA applications, ACA tax forms, and other applications deploying
during PY 2015.

                                                                                             Page 4
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



In addition, IRS organizations did not timely deliver final MeF programming changes to the FIT
program. Final MeF programming changes for the PY 2014 FIT were not received until
mid-December 2013, nearly one month following the planned start of MeF test execution. The
MeF system is a critical component of the FIT and filing season. During PY 2013, more than
80 percent of individual tax returns were filed electronically. The FIT program develops test
cases for the MeF system, including tests of any programming changes made to the system since
the prior FIT. The FIT program could not complete development of test cases for the MeF
application until the programming changes were known. The delay in delivery of MeF
programming changes is significant because more than 31 percent of all test cases are related to
MeF tests. The late receipt of the programming changes resulted in a later than ideal start and
completion of the MeF testing. As a result of the late receipt of MeF programming changes at
the start of the PY 2014 Filing Season, only 24 percent of the MeF testing was completed. The
remaining MeF test cases were not completed until March 2014. Earlier receipt of MeF program
changes is needed to ensure that MeF test cases are completed before the start of the filing
season.
In addition, the late receipt of programming changes, for systems other than MeF, resulted in
errors occurring during the filing season. We reviewed nearly 3,000 filing season problem
tickets and found 12 tickets for errors in several systems that should have been identified and
corrected during the FIT, but were not because program changes were received too late for the
FIT program to encounter the problem and correct it prior to the filing season. Eleven of the
12 filing season problem tickets were assigned a priority two, or a high level of impact.
The FIT program needs to receive programming changes timely to complete testing and identify
problems before the start of the filing season. After the start of the filing season, the test
execution phase continued and the FIT identified five additional priority one and 66 priority two
problems until test execution was completed in March 2014. It is critical that the FIT program
receive all application programming changes earlier than in the past in order to plan for and
complete all testing before the start of the PY 2015 Filing Season.

EOps organization and Wage and Investment Division support should be
improved
The EOps organization provides operational information technology support to the annual FIT
program. EOps organization personnel support the FIT program in many ways based on their
knowledge and experience of operations. For example, EOps organization personnel manage
and execute operating system jobs for the FIT program as they normally do during the filing
season. EOps organization personnel also manage the program schedule, make sure jobs are
running, and copy and transfer files as needed. However, in December 2013, EOps organization
support was withdrawn from the PY 2014 FIT program prior to the completion of the test
execution process to support the filing season.
Tax examiners from the Wage and Investment Division also lend support to the annual FIT
program. Each year, FIT program management request the assistance of experienced tax
                                                                                           Page 5
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



examiners to help create test tax returns. The tax examiners’ assistance is also needed
throughout test execution to analyze and provide insight into the reasons test tax returns go to the
ERS during processing. The ERS is an application that provides for the correction of errors
associated with tax returns submitted for processing. During the PY 2014 FIT, a test analyst
observed that tax examiner support was not provided to the FIT program for a sufficient period
of time to research and resolve ERS returns.
No formal agreement is in place between the EST Division and the EOps organization and Wage
and Investment Division regarding the specific support that each will provide to the FIT
program, including the duration of the support. To obtain tax examiner support for the PY 2014
FIT, the EST Division issued a memorandum to the Wage and Investment Division detailing and
requesting the support required. During initial planning, the EST Division requested support
through December 20, 2013. However, this end date was too early to assist in resolving returns
that continued to go to the ERS as test execution continued into March 2014. The resources
were not available to the FIT program to continue beyond December 20, 2013.
The early loss of EOps organization support from the PY 2014 FIT program resulted in
unplanned deviations from the FIT Test Plan as not all tests could be completed as planned.
Tests for the Automated Collection System (ACS), the Notice Review Processing System, and
the Notice Conversion System were begun but not completed due to the redirection of EOps
organization support from the FIT program to support the filing season. The PY 2014 End of
Test Report details ACS and Notice Review Processing System tests that were not executed
because of the timing of the end of EOps organization support. The early release of EOps
organization support also occurred during the PY 2013 FIT. The PY 2013 End of Test Report
stated that the majority of ACS processing had been completed. In contrast, the PY 2014 report
indicates a more significant impact stating that the majority of the ACS processing was not
completed.
Our review of nearly 3,000 problem tickets opened for the 2014 Filing Season, as of
March 6, 2014, identified five priority two errors or problems that occurred during the filing
season due to the incomplete testing of the ACS and the Notice Review Processing System
during the FIT. These errors could have been identified and corrected during the PY 2014 FIT
with the appropriate level of EOps organization support to complete the ACS and Notice Review
Processing System testing.

Support for the FIT environment needs improvement
The FIT program requires a production-like environment to effectively test the interoperability of
all of the tax processing systems. The FIT program’s information technology environment
consists of all of the systems, applications, databases, and hardware needed to match the filing
season environment as closely as possible. For some systems, the FIT program’s environment
does not fully replicate the filing season environment due to constraints on test equipment and
system resources. The PY 2014 FIT tested 48 of the IRS’s 99 essential tax processing systems.

                                                                                             Page 6
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



While the IRS has begun a process to ensure that IRS test environments match the filing season
environment, the new process has not been applied to the FIT program’s environment.
The FIT program’s environment could more closely mirror the filing season environment by
including the Integrated Customer Communications Environment (ICCE). Inclusion of the ICCE
in the FIT program’s environment allows customer service applications such as “Where’s My
Refund?” to be tested. For the PY 2014 FIT, the Systems Acceptability Testing organization did
not have the resources to support the ICCE test environment; therefore, the ICCE was not
included in the PY 2014 FIT. When the ICCE is not included in the FIT environment, there is an
increased risk that customer service application problems may not be identified and corrected
prior to the start of the filing season. Problems with applications during the filing season could
undermine the IRS’s mission to provide top quality customer service to taxpayers. Taxpayers
could also be inconvenienced and frustrated trying to resolve tax account issues or obtain tax
information such as the status of their refund. The importance of including the ICCE in the FIT
was demonstrated in PY 2013, when the ICCE was included in the FIT. The testing revealed a
problem that would have affected a significant number of taxpayers using the “Where’s My
Refund?” application. In Fiscal Year 2012, the “Where’s My Refund?” application was
accessed 132 million times.
In addition, problem tickets for the PY 2014 FIT show a need for improvement of the FIT
program’s information technology environment. Twenty-one (4 percent) of the 528 problem
tickets opened during the PY 2014 FIT were related to the information technology environment
i.e., portal, that the FIT program uses to carry out its testing responsibilities. For example, the
Employee User Portal and the Integrated Enterprise Portal allow FIT program personnel to
access IRS data and systems to carry out their FIT program responsibilities. The problems with
the portals reported in the KISAM system ranged from the critical level, such as not being able to
connect to the portals, to high-level problems, such as not being able to see tax forms or other
errors. When the portals are not available or are not performing as expected, interruptions and
delays in the FIT occur. Portal problems continued to be identified and reported during the filing
season. However, the portal problem tickets created during the FIT and during the filing season
are not analyzed by EST Division management or used to identify and correct the underlying
problems.

Recommendations
To ensure that the FIT program is provided with the necessary resources and support, the Chief
Technology Officer should:
Recommendation 1: Ensure that an analysis of the problem tickets is performed to determine
if there are any root causes that can be addressed to reduce the burden on the FIT program and IT
organization resources.



                                                                                            Page 7
                                Increased Support Is Needed to Ensure the
                                 Effectiveness of the Final Integration Test



        Management’s Response: The IRS agreed with this recommendation. The EST
        Division will develop a plan to engage AD organization partners and define a process to
        conduct analysis of FIT problem tickets to be implemented annually as part of test
        closeout activities beginning with the Filing Season 2015 FIT test. Ongoing management
        and support of the root cause analysis activities will require additional resources and is
        contingent on additional funding or re-prioritization of other activities.
Recommendation 2: Identify and provide the resources needed to ensure the necessary level
of EOps organization and Wage and Investment Division support to the FIT program.
        Management’s Response: The IRS agreed with this recommendation, to the extent
        funding is available. The EST Division will submit a Memorandum of Understanding to
        the EOps organization for support for all FIT activities and will extend the duration of
        Wage and Investment Division field support resources.
Recommendation 3: Ensure that the ICCE is included in the FIT program’s environment.
        Management’s Response: The IRS agreed with this recommendation. Costing
        plans are in progress to implement the ICCE application in the FIT in support of Filing
        Season 2015 testing. The 2015 Annual FIT effort is moving forward with test planning
        and preparation to include the ICCE in its Filing Season 2015 scope contingent upon
        overall budgets and prioritization of essential taxpaying operations.

Management Oversight Should Include the Use of Performance
Metrics to Monitor Final Integration Test Effectiveness
The Office of Management and Budget, Circular No. A-123, Management’s Responsibility for
Internal Control,4 provides guidance to Federal managers on improving the accountability and
effectiveness of Federal programs and operations. The Circular states that internal or
management control is an integral component of an organization’s management that provides
reasonable assurance of the effectiveness and efficiency of operations. In addition, the
Government Accountability Office established the Standards for Internal Control in the Federal
Government.5 The standards state that activities need to be established to monitor performance
measures and indicators and that managers need to compare actual performance to planned or
expected results.
During the FIT, as in the filing season, tax returns that fail validation while in process are sent to
the ERS. Each return in the ERS must be manually researched and the condition causing the
return to be routed to the ERS must be corrected for processing to continue. The FIT program’s

4
  Office of Management and Budget, Circular No. A-123 Revised, Management’s Responsibility for Internal
Control, p. 4 (December 2004).
5
  Government Accountability Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal
Government, p.1 (November 1999).
                                                                                                          Page 8
                                    Increased Support Is Needed to Ensure the
                                     Effectiveness of the Final Integration Test



Standard Operating Procedures6 do not require FIT program management to analyze the test tax
returns that are routed to the ERS. However, the ERS is a source of information that can help
measure the effectiveness of the annual FIT program and can help to identify opportunities to
improve the FIT program. For example, a FIT analyst determined that many of the FIT test tax
returns went to the ERS due to errors on the returns caused by the lack of training on properly
preparing valid test tax returns. This condition was not identified in the PY 2013 FIT and may
not have been identified in PY 2014 if a FIT program analyst had not included this in the FIT
program’s PY 2014 Lessons Learned document. FIT program management was unable to
provide the Treasury Inspector General for Tax Administration with information reports or
statistics about the test tax returns that failed validation and were sent to the ERS.
The FIT program closeout activities are conducted to learn from the FIT process and apply
lessons learned to improve subsequent integration tests. On a daily basis, the FIT program tracks
and reports on the progress of FIT problem tickets. Progress in resolving problem tickets and
newly created problem tickets are also discussed at daily status meetings. However, the FIT
program’s Standard Operating Procedures do not require FIT program management to analyze
the problem tickets created during the FIT and the filing season to identify trends or areas for
additional support or focus. At the Treasury Inspector General for Tax Administration’s request,
FIT program management provided us with a breakdown of all 528 problem tickets by type of
problem for the PY 2014 FIT. Figure 2 presents the 528 problem tickets grouped by type of
problem.
                          Figure 2: PY 2014 FIT Problem Tickets by Type

               PY 2014 FIT Issue Type                     Number of Tickets          Percentage of Tickets

     Hardware                                                       12                          2%
     Portal                                                         21                          4%

     Programming                                                   436                          83%

     Programming requirements were not sent
                                                                    53                          10%
     to the contractor to code.
     Services Needed: copy database schema,
                                                                     6                          1%
     load data, etc.
     Total                                                         528                         100%
    Source: IRS FIT project manager, March 21, 2014.




6
    IRS, Final Integration Test (FIT) Standard Operating Procedures – SOP Version 1, p. 1 (Feb. 2013).
                                                                                                         Page 9
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



The FIT program has not established performance metrics to compare actual performance with
expected performance. Without this type of management reporting, FIT program management
does not have an established process for measuring performance and identifying areas for
improvement. In addition, analysis of problem tickets created during the FIT and filing season
processing, and the analysis of ERS test tax returns, are not required FIT program activities.
While FIT program management participates in the filing season meetings that include a
discussion of the problem tickets, they do not perform a formal analysis of the problem tickets to
help identify opportunities to improve the FIT program.
Researching and resolving test tax returns in the ERS takes time and resources away from other
FIT program responsibilities. Without information about the types of problems encountered
during the annual FIT and problems occurring in the filing season that should have been
identified and corrected during the FIT, management does not have the information needed to
request additional resources and support or to identify areas of operations that need
improvement.

Recommendations
To ensure that the FIT results are used to improve the FIT program, the Chief Technology
Officer should:
Recommendation 4: Establish performance goals and metrics for the annual FIT program
and establish procedures for reporting on the progress in meeting those goals and metrics.
       Management’s Response: The IRS agreed with this recommendation. A plan will
       be submitted identifying goals, measures, and a reporting process by September 2015.
       The EST Division will require additional resources to implement, manage, and support
       the identification and reporting of performance metrics. Implementation will begin to the
       extent overall budgets and prioritization of essential taxpaying operations allows.
Recommendation 5: Establish a process to determine the reason FIT test tax returns go to the
ERS and use those results to identify training opportunities or operational improvements.
       Management’s Response: The IRS agreed with this recommendation. The EST
       Division is taking steps to implement this recommendation and has initiated ERS training
       sessions to address common fallout errors. The EST Division will continue to leverage
       the current test-tracking tool, Rational Quality Manager, to document, track, and report
       ERS data results. Further, modifications to existing test-tracking tools have been initiated
       to document, collect, and report the ERS fallout results for the Filing Season 2015 effort.




                                                                                          Page 10
                             Increased Support Is Needed to Ensure the
                              Effectiveness of the Final Integration Test



A Formal Process Has Not Been Established to Compare and
Synchronize the Final Integration Test and Filing Season
Environments
According to the FIT program’s Standard Operating Procedures, the FIT is the integrated
end-to-end testing of multiple systems which support the high-level business requirements of the
IRS. It is designed to ensure that IRS systems interoperate correctly during the filing season by
utilizing copies of data in a simulated filing season environment.
The IRS does not have a formal process to evaluate and compare the FIT program’s environment
against the filing season environment. The IRS has taken steps to improve its knowledge,
documentation, and management of the various environments with the implementation of a new
function called Environment Management under the EOps organization. This new group is
responsible for establishing environment baselines. In addition, this group has started to perform
environment comparison and synchronization work, capturing data on target production servers
and then on alternate environment servers for the purpose of conducting a gap analysis. The IRS
first used this new approach with the implementation of the ACA Information System
Release 3.0 in October 2013. However, the IRS has not implemented this new process for the
FIT program’s environment. Furthermore, at the present time, the IRS does not have any
scheduled plan to implement the process to compare and synchronize the FIT program’s
environment with the filing season environment.
In lieu of a formal process to compare and synchronize the FIT program’s environment to the
filing season environment, the FIT program monitors upcoming changes that are scheduled to be
implemented as a result of Unified Work Requests or Change Requests. A Unified Work
Request is a formal notification from an IRS business or functional operating division to an
information technology supplier organization of a business need for information technology
products or services. The Unified Work Request documents the information technology services
or products required and includes changes to current or planned IRS systems, applications, or
infrastructure. The Unified Work Request process focuses on collecting requests for information
technology products and services from the IT organization into a single, flexible system using a
common set of processes and procedures. In comparison, a Change Request is the medium for
requesting approval to change a baseline product. FIT program personnel conduct biweekly
meetings and attend working-group meetings that focus on specific projects, e.g., the MeF and
the Electronic Fraud Detection System, to evaluate the impact of filing season changes that
would affect the FIT program’s environment. Because there is more than one Change Request
system, FIT program management stated that it is a challenge to keep abreast of all the upcoming
filing season changes.
While the Information Technology Software Test Process and Procedures, Internal Revenue
Manual 2.127.2, governing the FIT program states that the test environment should simulate the
filing season environment, it does not include specific steps for completing this required activity.

                                                                                            Page 11
                            Increased Support Is Needed to Ensure the
                             Effectiveness of the Final Integration Test



In addition, the IRS has not documented policies or procedures to compare and synchronize the
FIT program’s environment with the filing season environment.
Without a formal process to compare and synchronize the FIT program’s environment to the
filing season environment, there is increased risk that implemented programming changes will
cause system errors that are not detected and addressed during the annual FIT.

Recommendation
To ensure that the FIT program’s environment simulates the filing season environment as closely
as possible, the Chief Technology Officer should:
Recommendation 6: Implement the environment comparison and synchronization process
between the FIT program’s environment and the filing season environment.
       Management’s Response: The IRS agreed with this recommendation. The EST
       Division will engage EOps organization environment owners to complete the gap
       analysis and synchronize the FIT environment in support of the 2016 Annual FIT to the
       extent overall budgets and prioritization of essential taxpaying operations allows.




                                                                                       Page 12
                                    Increased Support Is Needed to Ensure the
                                     Effectiveness of the Final Integration Test



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the Execution phase of the PY1 2014 FIT process. To
accomplish our objective, we:
I.         Identified the requirements and criteria applicable to the PY 2014 FIT.
II.        Determined if the IRS completed the required exit criteria for the Planning and
           Preparation phases.
           A. Determined if the following exit criteria were met to demonstrate the completion of
              the Planning phase: requirements baselined, test environment(s) established, test plan
              created, repository established, and project folder established.
           B. Determined if the following exit criteria were met to demonstrate the completion of
              the Preparation phase: Test Readiness Review completed, Test Plan finalized and
              issued, test cases/scripts/data developed, and environments verified.
           C. Determined if the IRS ensured that the test environment adequately mirrors the
              production environment.
           D. Obtained test scripts and test cases for systems participating in FIT testing.
           E. Determined if the IRS adequately assessed the impact of the Federal Government
              shutdown of October 1, 2013, through October 16, 2013, on the PY 2014 FIT. We
              documented the impact and assessed the actions taken to ensure that the shutdown did
              not negatively impact the effectiveness of the PY 2014 FIT.
III.       Evaluated the effectiveness of the Execution phase activities.
           A. Observed execution of test cases and test scripts.
           B. Determined if test results were adequately reported and documented.
           C. Determined if the following execution outputs were produced: test status report(s);
              test case waiver or deferral, if applicable; and problem tickets, if applicable.
           D. Determined if the following exit criteria were met to demonstrate completion of the
              Execution phase: Test cases updated to reflect status, i.e., Passed/Failed/Waived/
              Deferred, defect status updated, i.e., Closed/Open, repository updated with test
              results, and test status reports updated to reflect results.


1
    See Appendix IV for a glossary of terms.
                                                                                               Page 13
                            Increased Support Is Needed to Ensure the
                             Effectiveness of the Final Integration Test



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s software testing
standards and procedures. We evaluated these controls by interviewing management and
reviewing IRS documentation supporting the completion of exit criteria for the Planning,
Preparation, and Execution phases of the PY 2014 FIT.




                                                                                        Page 14
                           Increased Support Is Needed to Ensure the
                            Effectiveness of the Final Integration Test



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Mike Mohrman, Lead Auditor
Joan Bonomi, Senior Auditor
Ashley Weaver, Auditor




                                                                                     Page 15
                          Increased Support Is Needed to Ensure the
                           Effectiveness of the Final Integration Test



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Enterprise Systems Testing, Enterprise Services OS:CTO:ES:EST
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                Page 16
                                 Increased Support Is Needed to Ensure the
                                  Effectiveness of the Final Integration Test



                                                                                              Appendix IV

                                     Glossary of Terms

            Term                                                    Definition
Affordable Care Act               A suite of applications, hardware, and software to support the
Information System                Patient Protection and Affordable Care Act1 (enacted on
                                  March 23, 2010).
Applications Development          A part of the IRS IT organization responsible for building, testing,
Organization                      delivering, and maintaining integrated information technology
                                  applications to support modernized systems and the filing season
                                  environment.
Change Request                    The medium for requesting approval to change a baseline product
                                  or other controlled item.
Command Code                      A five-character abbreviation for a particular inquiry or action
                                  requested through the Integrated Data Retrieval System. Each
                                  command code is used for a specific purpose.
Customer Account Data             An IRS application that will replace the existing Individual Master
Engine 2                          File and Customer Account Data Engine applications. It is
                                  designed to provide state-of-the art individual taxpayer account
                                  processing and technologies to improve customer service to
                                  taxpayers and enhance tax administration.
Employee User Portal              The internal IRS portal that allows IRS employee users to access
                                  IRS data and systems, such as tax administration processing
                                  systems, financial information systems, and other data and
                                  applications, including mission-critical applications.
Enterprise Operations             A part of the IRS IT organization that provides server and
Organization                      mainframe computing services for all IRS business entities and
                                  taxpayers.
Enterprise Services               A part of the IRS IT organization that designs and tests enterprise
Organization                      solutions. It includes the EST Division responsible for the FIT.


1
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                         Page 17
                            Increased Support Is Needed to Ensure the
                             Effectiveness of the Final Integration Test



          Term                                           Definition
Error Resolution System     An application that provides for the correction of errors associated
                            with input submissions. The error inventory is managed on a
                            database, and corrected documents are validated by the
                            Generalized Mainline Framework system.
External Trading Partner    External organizations that receive data from or provide data to the
                            IRS. External organizations sharing data with the IRS include
                            State and local governments, banks, other Federal agencies, and
                            foreign governments.
Filing Season               The period from January through mid-April when most individual
                            income tax returns are filed.
Final Integration Test      A document that provides an overview of the methodology for
Concept of Operations       planning and executing the FIT of software systems before
                            deployment to the current filing season environment.
Final Integration Test      The purpose of this process step is to outline the activities required
Execution                   to execute software tests within the IRS.
Government                  An independent, nonpartisan agency that works for Congress. The
Accountability Office       Office reports to Congress on how well Government programs and
                            policies are meeting their objectives. It advises Congress and the
                            heads of executive agencies about ways to make the Government
                            more efficient, effective, ethical, equitable, and responsive.
Information Technology      The IRS organization responsible for delivering information
Organization                technology services and solutions that drive effective tax
                            administration to ensure public confidence.
Integrated Customer         An automated self-help system that provides customer service
Communications              applications through toll-free telephone service and the Internet.
Environment                 The toll-free telephone service provides automated self-service
                            applications that allow taxpayers to help themselves, as well as
                            providing avenues to route taxpayers to live customer service
                            representatives. The Internet component of the ICCE allows
                            taxpayers to check their refund status.
Integrated Data Retrieval   IRS computer system capable of retrieving or updating stored
System                      information. It works in conjunction with a taxpayer’s account
                            records.


                                                                                          Page 18
                           Increased Support Is Needed to Ensure the
                            Effectiveness of the Final Integration Test



          Term                                          Definition
Integrated Enterprise      Allows registered individuals, third-party users, and
Portal                     self-authenticated individual taxpayers access to selected specific
                           tax information and other sensitive applications and data. It
                           supports the exchange of bulk files of information with the IRS.
Job                        A collection of specific tasks constituting a unit of work for a
                           computer.
Knowledge                  An IRS application that maintains the complete inventory of
Incident/Problem Service   information technology and non–information technology assets,
Asset Management System    computer hardware, and software. It is also the reporting tool for
                           problem management with all IRS-developed applications.
Modernized e-File          The IRS’s electronic filing system that enables real-time processing
                           of tax returns while improving error detection, standardizing
                           business rules, and expediting acknowledgements to taxpayers.
                           The system serves to streamline filing processes and reduce the
                           costs associated with a paper-based process.
Office of Management and   The largest component of the Executive Office of the President.
Budget                     The management side oversees and coordinates the Federal
                           procurement policy, performance and personnel management,
                           information technology, and financial management. In this
                           capacity, it oversees agency management of programs and
                           resources to achieve legislative goals and administration policy.
Portal                     The web-based infrastructure (hardware and software) that serves
                           as the entry point for web access to IRS applications and data.
Processing Year            The calendar year in which the tax return or document is processed
                           by the IRS.
Results Oriented           Processing triggered by the input of a taxpayer form, an Integrated
Transaction Processing     Data Retrieval System Command Code, taxpayer request for
                           information on an IRS application website, or a telephone call
                           which will ultimately produce a refund, notice, or letter as output
                           back to the taxpayer.




                                                                                         Page 19
                       Increased Support Is Needed to Ensure the
                        Effectiveness of the Final Integration Test



            Term                                     Definition
Scenario               It is comprised of the event, i.e., type of input data which results in
                       an action, the entry point into the system, e.g., Integrated Data
                       Retrieval System, Integrated Submission and Remittance
                       Processing, etc., the action, and the expected result. There may be
                       several scenarios per thread.
Test Case              The foundation of a test. A test case references specific test data
                       and the expected results associated with specific program criteria.
                       It is used to verify a specific process in the application software
                       and to test system requirements.
Thread                 The data flow of a test execution path through the IRS filing season
                       process. Threads depict which runs will be executed and contain
                       an overall view of the system through which the data are processed.
Unified Work Request   Gives the detailed business requirements for data requests so that
                       the IRS can properly review, assign, analyze, and respond
                       (approve/deny) to the request and can also cost and schedule the
                       request for the implementation and delivery of any agreed-upon
                       information technology products or services.
Wage and Investment    A part of the IRS organization responsible for serving taxpayers
Division               filing a Form 1040, U.S. Individual Income Tax Return, with no
                       accompanying Schedule C, Profit or Loss From Business,
                       Schedule E, Supplemental Income and Loss, Schedule F, Profit or
                       Loss From Farming, or Form 2106, Employee Business Expenses,
                       and no international activity. Annually, the Wage and Investment
                       Division serves more than 123 million customers, accounting for
                       about 94 million individual tax returns.




                                                                                      Page 20
          Increased Support Is Needed to Ensure the
           Effectiveness of the Final Integration Test



                                                    Appendix V

Management’s Response to the Draft Report




                                                         Page 21
Increased Support Is Needed to Ensure the
 Effectiveness of the Final Integration Test




                                               Page 22
Increased Support Is Needed to Ensure the
 Effectiveness of the Final Integration Test




                                               Page 23
Increased Support Is Needed to Ensure the
 Effectiveness of the Final Integration Test




                                               Page 24
